                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                        Audit of Bureau of East Asian and

                                         Pacific Affairs Compliance With

                                       Trafficking in Persons Requirements


                                            Report Number AUD/IP-12-02, October 2011




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                                              United States Department of State
                                                              and the Broadcasting Board of Governors

                                                              Office of Inspector General




                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State (Department) and the Broadcasting Board of Governors.

        This report is an assessment of Bureau of East Asian and Pacific Affairs contract,
Department employee, and contractor compliance with trafficking in persons (TIP) laws,
policies, and regulations. The report is based on interviews with Department employees,
officials of relevant agencies and institutions and contractors, direct observation, and a review of
applicable documents.

       OIG contracted with the independent public accountant RM Advisory Services LLC
(RMAS) to perform this audit. The contract required that RMAS perform the audit in
accordance with guidance contained in the Government Auditing Standards, issued by the
Comptroller General of the United States. RMAS's report is included.

       RMAS identified four areas in which improvements could be made: development of a
comprehensive Foreign Affairs Manual/Foreign Affairs Handbook policy on the subject of
combating trafficking in persons, expanding the Department's Standards of Conduct to prohibit
TIP activities, establishing an office responsible for employees to report suspected instances of
TIP, and requiring training for all employees on TIP laws and policies.

        OIG evaluated the nature, extent, and timing of RMAS 's work; monitored progress
throughout the audit; reviewed RMAS's supporting documentation; evaluated key judgments;
and performed other procedures as appropriate. OIG concurs with RMAS's findings, and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft form with those individuals responsible for
implementation. OIG's analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                         Harold W. Geisel
                                         Deputy Inspector General
                                       UNCLASSIFIED 





RM Advisorv Services LLC
Internal Controls, Audit, Finance




Audit of Bureau of East Asian and Pacific Affairs Compliance with Trafficking in Persons
Requirements


Office of Inspector General
U.S. Department of State
Washington, D.C.


RM Advisory Services LLC (referred to as "we" in this letter), has performed an audit of Bureau
of East Asian and Pacific Affairs (EAP) compliance with Federal laws and regulations and U .S.
Department of State policies related to trafficking in persons. This performance audit, perfOlmed
under Contract No . S-AQM-MA-IOF4404, was designed to meet the objectives identified in the
report section entitled "Objectives" and further defined in Appendix A, "Scope and
Methodo logy."

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the results of our
performance audit and the related findings and recommendations to the U.S . Department of State
Office of Inspector General.

We appreciate the cooperation provided by personnel in Department offices during the audit.


RM Advisory Services LLC



John N. Glass, CPA.
Principal


Alexandria, Virginia
September 201 1




                                      UNCLASSIFIED 

                      UNCLASSIFIED



Acronyms
A/LM/AQM     Bureau of Administration, Office of Logistics Management, Office
                     of Acquisitions Management
A/OPE        Bureau of Administration, Office of the Procurement Executive
CA           Bureau of Consular Affairs
CS           Civil Service
Department   Department of State
DS           Bureau of Diplomatic Security
DUNS         Data Universal Numbering System
EAP          Bureau of East Asian and Pacific Affairs
FAH          Foreign Affairs Handbook
FAM          Foreign Affairs Manual
FAR          Federal Acquisition Regulation
FPDS         Federal Procurement Data System
FS           Foreign Service
GAO          Government Accountability Office
G/TIP        Office to Monitor and Combat Trafficking in Persons
NAICS        North American Industry Classification System
NSPD         National Security Presidential Directive
OIG          Office of Inspector General
PIB          Procurement Information Bulletin
TIP          trafficking in persons
TVPA         Trafficking Victims Protection Act
TVPRA        Trafficking Victims Protection Reauthorization Act
WWTVPRA      William Wilberforce Trafficking Victims Protection
                     Reauthorization Act




                      UNCLASSIFIED

                                                            UNCLASSIFIED


                                                            Table of Contents
Section                                                                                                                            Page       


Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Objective ..............................................................................................................................5 


Results of Audit ...................................................................................................................5 


    Finding A. Department Employees Are Not Uniformly Aware of Trafficking in
    Persons Policy.................................................................................................................5 


    Finding B. Contractors Are Not Complying With Requirements of Federal
    Acquisition Regulation Clause 52.222-50.....................................................................14 


Other Matters .....................................................................................................................18 


List of Recommendations ..................................................................................................19 


Appendices 


    A. Scope and Methodology..........................................................................................20 

    B. General Awareness Survey .....................................................................................29 

    C. Text of Federal Acquisition Regulation Clause 52.222-50 .....................................34 

    D. Current Presentation of Federal Acquisition Regulation Clause 52.222-50 in 

       Department of State Contracts ................................................................................36 

    E. Office to Monitor and Combat Trafficking in Persons Response ...........................39 





                                                            UNCLASSIFIED

                                          UNCLASSIFIED


                                        Executive Summary
        To fulfill its responsibilities under the William Wilberforce Trafficking Victims
Protection Reauthorization Act of 2008 (WWTVPRA), the Office of Inspector General (OIG),
Office of Audits, contracted with RM Advisory Services LLC (referred to as “we” in this report),
an independent public accountant, to investigate a sample of contracts in the Asia-Pacific region
with a heightened risk of trafficking in persons and to determine to what extent Department of
State (Department) personnel and contractors are complying with laws, regulations, and policies
established to prevent and detect trafficking in persons (TIP) activities on Department-awarded
contracts.

        We found that Department employees in the Bureau of East Asia and Pacific Affairs
(EAP) and the Asia-Pacific region were not uniformly aware of what constitutes TIP activity, the
penalties for TIP violations, where to report allegations of violations, and that the TIP policy
applies to Department contractors. In fact, 290 Department employees responded to a survey
(the General Awareness Survey is in Appendix B) that they were aware of a possible TIP
violation; however, only one TIP allegation has been reported to OIG’s Office of Investigations.
This lack of awareness of TIP policy occurred because the Department has not established and
communicated a formal TIP policy to its employees that includes a definition of TIP activity and
mechanisms to report suspected violations. In addition, although the Department’s code of
conduct, published in the Foreign Affairs Manual (FAM),1 prohibits employees from acquiring a
commercial sex act and using forced domestic labor, it does not specifically address TIP, nor
does it require employees to report suspected TIP violations. A lack of training on TIP issues
has also contributed to a lack of awareness among employees. As a result, TIP violations may
not be detected or reported.

        We also found that contractors were not always aware of or complied with their
obligations under Federal Acquisition Regulation (FAR) clause 52.222-50, “Combating
Trafficking in Persons.” These obligations include a responsibility to notify their employees of
the U.S. Government’s TIP policy and the consequences for violation of the policy. We
conducted site visits to 24 contractors in the Asia-Pacific region whose contracts included FAR
clause 52.222-50. Of the 24 contractors visited, we determined that 20 contractors (83 percent)
had not notified their employees of the U.S. Government’s TIP policy and 22 contractors (92
percent) had not informed their employees of the consequences for violation of the policy.
Additionally, six contractors hired subcontractors for the performance of services; none of these
contractors had included the required language or the substance of the FAR clause in their
subcontracting agreement.

        A contributing factor for the lack of awareness was the fact that Department contracting
officials did not consistently include FAR clause 52.222-50 in Department contracts. Of 41
contracts reviewed in the Asia-Pacific region, we found that 11 contracts (27 percent) did not
contain the clause, even though the contracts were awarded after April 19, 2006, or the date
when the FAR clause became mandatory. Additionally, eight contracts did not contain the
correct version of the clause. Internal controls over the procurement process were not sufficient
to ensure the award of contracts with the FAR clause in its correct form. Because the full text of

1 3 FAM 4138, “Standards of Conduct.”

                                                1
                                          UNCLASSIFIED
                                       UNCLASSIFIED


the clause was not included in their contracts, many contractors stated they were not aware of
specific obligations in their contracts to notify their employees of the U.S. Government’s TIP
policy, the prohibition against the procurement of commercial sex acts, and the requirement to
report possible violations to their contracting officer. Finally, at the time of our audit,
Department procurement policies did not require contracting officers and contracting officer’s
representatives to verify that contractors do comply with the FAR clause.

        The contractors’ lack of compliance with the obligations in FAR 52.222-50 has several
effects. Contractors and their employees are not always aware of the TIP policy. As a result, the
U.S. Government is not well-positioned to hold a contractor responsible for complying with the
contract provisions related to TIP. When contractors do not notify their employees of the policy
regarding TIP, there is a missed opportunity to communicate the TIP policy more widely in the
Asia-Pacific region. Finally, contractor employees may be aware of, but may not report, TIP
violations by the contractors.

        To increase awareness among Department employees of the TIP policy, we are
recommending that the Department implement a separate policy in the FAM on TIP, expand the
Department’s code of conduct to prohibit TIP activities, and designate an office responsible for
employees to report instances of TIP. In addition, the Office to Monitor and Combat Trafficking
in Persons (G/TIP) should, in collaboration with the Foreign Service Institute, expand trafficking
in persons training to all Department employees.

        Near the end of our fieldwork, on March 24, 2011, the Office of the Procurement
Executive (A/OPE) issued Procurement Information Bulletin (PIB) No. 2011-09, “Combating
Trafficking in Persons,” which requires contracting officer’s representatives to ensure that all
solicitations and contracts over the micro-purchase threshold ($3,000) contain FAR clause
52.222-50. The PIB also provides guidance to contracting officer’s representatives on how to
monitor contracts for TIP compliance. Further, this PIB recommends that contracting officers
and contracting officer’s representatives provide a copy of the full text of the FAR clause to
prospective contractors prior to award of the contract. Issuance of the PIB has addressed the
underlying causes as to why contractors are not complying with their obligations under their
contracts in regard to TIP. Therefore, we are not making any additional recommendations in this
regard.

        In September 2011, OIG provided a draft of this report to G/TIP. In its October 4, 2011,
response (see Appendix E) to the draft report, G/TIP agreed with the substantive deficiencies
identified and generally agreed with all of the report’s recommendations. Based on this
information, OIG considers each recommendation resolved because actions have been taken to
implement the recommendations. However, the recommendations will remain open until
documentation is provided that they have been fully implemented.

                                           Background
        The Department represents the United States in the global fight to address human
trafficking by engaging with foreign governments, international and intergovernmental
organizations, and civil society to develop and implement effective strategies for confronting

                                                2
                                       UNCLASSIFIED
                                         UNCLASSIFIED


modern slavery. The Department estimates that as many as 27 million men, women, and
children are living in such bondage around the world.

       The Secretary of State established, within the Department, G/TIP, which is charged with
coordinating Government-wide efforts to combat human trafficking and publishing the annual
Trafficking in Persons Report, which is the U.S. Government’s principal diplomatic tool used to
engage foreign governments on the subject of TIP. The importance of the Department’s efforts
in combating TIP was reinforced in a statement by G/TIP in its FY 2012 Bureau Strategic and
Resource Plan:

       Given the Secretary’s personal interest in the issue, resources will also need to be
       devoted to “in-reach” to fully incorporate TIP issues into the work and culture of
       the Department.

What is Trafficking in Persons?

        Over the past 15 years, “trafficking in persons” and “human trafficking” have been used
as umbrella terms for activities involved when someone obtains or holds a person in compelled
service. The Trafficking Victims Protection Act of 2000
(TVPA) describes this compelled service using a number of           TVPA defines severe forms of
different terms: involuntary servitude, debt bondage, and forced    trafficking as follows:
labor. Under the TVPA, individuals may be trafficking victims
                                                                     Sex trafficking in which a
regardless of whether they once consented, participated in a             commercial sex act is
crime as a direct result of being trafficked, were transported into      induced by force, fraud, or
the exploited situation, or were simply born into a state of             coercion, or in which the
servitude. At the heart of this phenomenon are the myriad                person induced to perform
                                                                         such an act has not attained
forms of enslavement–not the activities involved in international
                                                                         18 years of age; or,
transportation.
                                                                           The recruitment, harboring,
Trends in the Asia-Pacific Region                                           transportation, provision,
                                                                            or obtaining of a person for
         Asia remains a major source and destination of victims             labor or services, through
                                                                            the use of force, fraud, or
of trafficking. Among the major countries of origin are                     coercion for the purpose of
Bangladesh, Cambodia, China, Laos, the Philippines, Thailand,               subjection to involuntary
and Vietnam. Thailand is both a major source and destination                servitude, peonage, debt
country. Japan, Israel, and Turkey are significant destination              bondage, or slavery.
countries for victims trafficked from Southeast Asia.

       The growth in sex tourism in this region is one of the main contributing factors.
Thailand, Cambodia, and the Philippines are popular travel destinations for “sex tourists” from
western countries. Cross-border trafficking is prevalent in the Mekong region of Thailand,
Burma, Laos, Cambodia, Vietnam, and the Southern Yunnan Province of China. According to
various nongovernmental organizations’ sources, hundreds of thousands of foreign women and
children have been sold into the Thai sex industry since 1990, with most individuals coming
from Burma, Southern China, Laos, and Vietnam. East Asia is also a destination for trafficked


                                                  3
                                         UNCLASSIFIED
                                              UNCLASSIFIED


women. Victims from Southeast Asia are sent to Japan, Western Europe, the United States,
Australia, and the Middle East.2

Zero Tolerance Policy

       National Security Presidential Directive (NSPD) 22, issued on December 16, 2002, is a
policy directive to instruct federal agencies to strengthen their collective efforts, capabilities, and
coordination to support the policy to combat trafficking in persons. NSPD-22 states that
eradicating trafficking includes raising awareness at home and abroad about human trafficking
and how it can be eradicated. Essential elements of NSPD-22 include the following:

        	 The United States hereby adopts a “zero tolerance” policy regarding U.S.
           Government employees and contractor personnel representing the United
           States abroad who engage in trafficking in persons. Departments and agencies
           shall adopt policies and procedures to educate, as appropriate, personnel and
           contract employees on assignment or official travel abroad about trafficking in
           persons, to investigate, as appropriate, any allegations of involvement in
           trafficking by such personnel, and to punish, as appropriate, those personnel
           who engage in trafficking in persons. To the extent permitted by law,
           punishment may include disciplinary actions for United States Government
           personnel, and civil remedies such as debarment and suspension procedures
           for United States Government contractors engaged in trafficking.
        	 Department and agency heads shall expedite implementation of this 

           Presidential Directive. 

        	 [T]he United States Government opposes prostitution and any related 

           activities [commercial sex acts] as contributing to the phenomenon of 

           trafficking in persons. 


Contract Requirements

       The Trafficking Victims Protection Reauthorization Act of 2003 (TVPRA) required U.S.
Government grants, contracts, and cooperative agreements to contain a clause that authorized the
termination by the U.S. Government without penalty if the grantee, subgrantee, contractor, or
subcontractor engaged in severe forms of trafficking in persons or its respective employees
procured commercial sex acts while the grant, contract, or cooperative agreement was in effect or
used forced labor in the performance of the grant, contract, or cooperative agreement.

       The 2003 act led to changes in the FAR and a requirement for FAR clause 52.222-50,
“Combating Trafficking in Persons,” to be included in contracts awarded after April 19, 2006.
The FAR clause, among other things, prohibits contractors, subcontractors and employees
involved in the performance of the contract from engaging in severe forms of trafficking in
persons, using forced labor in the performance of the contract, and procuring commercial sex


2 Sources: UNODC, Trafficking in Persons: Global Patterns, April 2006, pp. 88, 89, and 103, and Congressional
Research Service Report for Congress, Trafficking in Persons: U.S. Policy and Issues for Congress, updated on June
20, 2007.
                                                        4
                                              UNCLASSIFIED
                                         UNCLASSIFIED


acts while the contract is in effect. It also establishes an obligation for contractors to inform their
U.S. Government contracting officer immediately of the following:

          Any information it receives from any source (including host country law
           enforcement) that alleges a contractor employee, subcontractor, or subcontractor
           employee has engaged in conduct that violates this policy.
          Any actions taken against contractor employees, subcontractors, or subcontractor
           employees pursuant to the FAR clause.

        The TVPRA of 2005 communicated an obligation to prevent Government employees and
contractors from engaging in TIP activity. In reauthorizing the TPVA, Congress found that “the
involvement of employees and contractors of the United States Government in trafficking in
persons, facilitating the trafficking of persons, or exploiting the victims of trafficking in persons
is inconsistent with United States laws and policies and undermines the credibility and mission
of the United States government.” Congress also expanded U.S. criminal jurisdiction to Federal
Government employees and contractors for trafficking offenses committed abroad.

        The TVPRA of 2005 also strengthened prosecution and punishment of traffickers and
provided funding for the prevention of trafficking, for the protection of and assistance for
victims, and for assistance to foreign countries to meet minimum standards for the elimination of
trafficking.

        The WWTVPRA of 2008 provides for the Inspectors General of the Department of
Defense, the Department of State, and the U.S. Agency for International Development to
investigate a sample of contracts, in FYs 2010–2012, in which there is a heightened risk of a
contractor engaging, knowingly or unknowingly, in acts related to TIP.

                                             Objective
       To fulfill its responsibilities under the WWTVPRA, the Office of Inspector General
contracted with RM Advisory Services LLC, an independent public accountant, to review a
sample of contracts with a heightened risk of trafficking in persons and to determine whether
Department personnel and contractors are complying with laws, regulations, and policies
established to prevent and detect TIP activities on Department-awarded contracts.

                                        Results of Audit

Finding A. Department Employees Are Not Uniformly Aware of Trafficking
in Persons Policy
        The Department employees in the Asia-Pacific region are not uniformly aware of what
constitutes TIP activity, the penalties for TIP violations, where to report allegations of TIP
violations, and that the U.S. Government’s zero tolerance policy regarding TIP applies to
Department contractors. This lack of employee awareness occurred because the Department has
not established and communicated a formal TIP policy for its employees that includes the
definitions of TIP activity and reporting mechanisms and has not provided adequate training to
                                                   5
                                         UNCLASSIFIED
                                       UNCLASSIFIED


employees on TIP issues. In addition, although the Department has prohibited employees from
procuring commercial sex acts and using forced domestic labor, the Department’s code of
conduct does not specifically address TIP or require employees to report suspected instances of
TIP. As a result, TIP violations may not be detected or reported. In fact, 290 (17 percent) of
1,702 Department employees responding to our survey indicated that they were aware of
possible TIP violations by Department employees, contractors, or their employees. However,
OIG’s Office of Investigations has received only one allegation on TIP.

        The Government Accountability Office’s (GAO) Standards for Internal Control in the
Federal Government requires agency management to ensure effective communications in a
broad sense, with information flowing down, across, and up the organization. The Department’s
FAM and associated Foreign Affairs Handbooks (FAH) provide a single, comprehensive, and
authoritative source for organizational structures, policies, and procedures that govern the
operations of the Department, the Foreign Service, and, when applicable, other Foreign Affairs
agencies.

Lack of Awareness of TIP in the Asia-Pacific Region and EAP

        The Department’s employees in the Asia-Pacific region and at EAP are not uniformly
aware of what constitutes a TIP activity, the penalties for TIP violations, where to report
allegations of TIP violations, and that the U.S. Government’s zero tolerance policy regarding
TIP applies to Department contractors. We made this determination based on our review of
responses to the General Awareness Survey, which was distributed to all post locations in the
Asia-Pacific region and to EAP personnel located in the United States, and on interviews and
discussions with Asia-Pacific region employees during the audit.

       As described in Appendix B, the survey of Department employees in the Asia-Pacific
region and at EAP was conducted to assess whether the employees were aware of issues related
to TIP. The survey was administered over the Department of State Intranet – OpenNet, and
1,702 responses were received from Department personnel.

        The survey found that 46 percent of the respondents reported being only “Somewhat
Aware” or “Not at all Aware” of the zero tolerance policy regarding all forms of human
trafficking, as shown in Figure 1.




                                                6
                                       UNCLASSIFIED
                                            UNCLASSIFIED


       Figure 1. Results of Survey of Department Asia-Pacific Region Employees:
                 Awareness of Zero Tolerance Policy for TIP

                 Very Aware                              909                  53%




           Somewhat Aware                      637               37%




            Not at all Aware     156    9%




        Supplementary comments were received from individuals responding to the survey
stating that they were not aware of the Department’s policy in this area. One particular comment
summarized the general level of awareness of the U.S. Government’s policy regarding TIP
among many EAP employees:

       Before taking this survey, I would have assumed that the U.S. Government would
       have a zero tolerance policy toward trafficking in persons, but I was not
       specifically aware of the policy. (Source: A Foreign Service Officer (FSO) with
       less than 1 year of experience in the Department.)

       When asked, in Question 2, if they were aware that the Department prohibited its
personnel from any form of involvement with human trafficking, including the procurement of
commercial sex acts whether or not such activity is legal in the country in which it was procured,
only 65 percent of the respondents reported that they were “Very Aware.” An additional 28
percent of respondents considered themselves to be “Somewhat Aware” of this policy, indicating
uncertainty or a lack of knowledge of some elements of this policy, as shown in Figure 2.

       Figure 2. Results of Survey of Department Asia-Pacific Region Employees:
                 Awareness of Department Employee Prohibitions Regarding TIP


              Very Aware                                 1,102                       65%




         Somewhat Aware                 472                28%




          Not at all Aware     128     8%




                                                     7
                                            UNCLASSIFIED
                                         UNCLASSIFIED



      In response to Question 2, an FSO with more than 10 years of experience in the
Department made the following comment indicating his level of awareness with the U.S.
Government’s policy:

        It has not been clear that Department regulations prohibit engaging in commercial
        sex acts. This should be made clearer as well as where to report suspected
        violations of trafficking in persons, etc.

The Department Has Not Established a Formal TIP Policy

        A lack of awareness of TIP issues has occurred among employees because the
Department has not established and communicated a formal TIP policy to employees that
includes the definitions of TIP activity and mechanisms for reporting violations of TIP policy.
The FAM and related FAHs encompass the Department’s organizational and functional policies
and its standards and procedures; however, the FAM does not have a specific policy that informs
employees of their responsibilities in respect to understanding and reporting TIP violations.

        We reviewed Department cables and other communications to employees to understand
how Department policy was being communicated in the absence of a formal FAM policy on TIP.
We found that the Department has taken actions to communicate the Department’s prohibition
against the procurement of commercial sex acts and to educate its employees on TIP issues.
Communication of this policy has been included in documentation as follows:

        3 FAM 4138, “Standards of Conduct,” discusses actions that may constitute grounds for
        taking disciplinary or separation action against an employee. Grounds specified in the
        FAM include “disgraceful conduct.” Also, FAM 4139.14 describes in more detail
        “notoriously disgraceful conduct,” which includes the frequenting of prostitutes.

    	 3 FAM 8612.2, “U.S. Government Employees Employing Domestic Staff Overseas,”
       addresses standards of treatment for domestic staff by employees, their dependents, and
       members of their households.

    	 The cable ALDAC 062864, dated June 2008, discussed the Department’s policy on the
       solicitation of prostitutes.

    	 The cable ALDAC 00014155, dated February 2008, contained guidelines for 

       implementing the unified policy on HIV/AIDS and TIP. 


       In addition, the Bureau of Overseas Buildings Operations (OBO) issued a bulletin on
November 21, 2007, regarding the treatment of construction workers on site locations. The
bulletin provided guidance to its field staff to help ensure its contractors treat their workers fairly
and humanely, both on and off site, and to minimize the likelihood that the field staff may
inadvertently participate in human trafficking activities.



                                                   8
                                         UNCLASSIFIED
                                            UNCLASSIFIED


        We did not find these communications to be effective in communicating the U.S.
Government’s policy on TIP for the following reason: the code of conduct references in the
FAM, although useful, are not specific to TIP policy and do not fully incorporate TIP issues into
the work and culture of the Department, as intended by the Secretary. Moreover, the issuance of
guidance in the form of ALDACs,3 which constituted the majority of communications to
employees on TIP, is of questionable effectiveness, since such communications are limited in
validity to 30 days.4

        We also assessed the extent to which post locations in the Asia-Pacific region had
established local policies and procedures to implement the U.S. Government’s policy on TIP.
This was performed through a Request for Information to all EAP post locations regarding the
following:

           The posts’ local policies and procedures to communicate and implement the zero
            tolerance policy regarding TIP.
           Training programs provided at post on the subject of TIP or human trafficking.
           Details on any suspected TIP activities reported at post locations.
           Information related to contracting policies and procedures with respect to FAR clause
            52.222-50.

       We found, except for the U.S. embassies in Australia, Thailand, and Indonesia, that
general guidance on TIP issues was rarely issued by Asia-Pacific region post locations to post
personnel.

        Only 30 percent of the survey respondents reported being “Very Aware” of policies and
procedures in effect at EAP or at post locations that relate to the awareness, prevention, and
reporting of TIP violations. Also, 24 percent of the respondents reported that they were “Not at
All Aware” of policies and procedures, as shown in Figure 3.




3 An ALDAC is an acronym for All Diplomatic and Consular Posts and refers to a telegram (cable) intended for 

worldwide dissemination.

4 Per 2 FAM 1113.1(3), “Program Offices,” program offices are responsible for ensuring that “organizational, 

policy, or procedural changes issued by ALDACS or Department Notices (see 2 FAM 1115.2) are incorporated into

the FAM within 30 days of the announcement of such changes.”

                                                      9
                                            UNCLASSIFIED
                                       UNCLASSIFIED


            Figure 3. Results of Survey of Department Asia-Pacific Region Employees:
                      Awareness of Department Policies and Procedures on TIP


                  Very Aware              503                30%




             Somewhat Aware                      783                      46%




              Not at all Aware          416            24%




        Although the Department has prohibited employees in 3 FAM 4139.14 from “notoriously
disgraceful conduct,” which includes the frequenting of prostitutes, and has prohibited
employees in 3 FAM 8610(a) from using forced domestic labor, the FAM does not address TIP
in general, nor does it require employees to report suspected instances of TIP activity involving
employees or contractors to the U.S. Government. In addition, an undated document entitled “A
Guide to Ethical Conduct for Employees in the United States and Abroad” does not mention TIP
in any manner that informs Department employees of the U.S. Government’s zero tolerance
policy regarding TIP, the prohibition against involvement in acts of trafficking in persons, what
constitutes TIP activity, the penalties for violations of the TIP policy, where to report possible
violations, the prohibition against the procurement of commercial sex acts, and the fact that the
U.S. Government’s zero tolerance policy regarding TIP also applies to the Department’s civilian
contractors. According to the General Awareness Survey, 734 (43 percent) of 1,702 Department
employees would not know where to report a TIP violation.

Lack of Training on TIP Issues

        The lack of training on TIP issues has also contributed to the lack of awareness among
Department personnel about TIP. Although Department personnel within the Bureau of
Consular Affairs are required to complete Foreign Service Institute-sponsored TIP training, not
all Department personnel are required to do so, even though NSPD-22 directs Departments and
agencies to educate, as appropriate, personnel and contract employees on assignment or official
travel abroad about TIP.

        Our survey revealed that 1,351 (79 percent) of 1,701 Department employees who
responded had not received training related to the awareness, prevention, or reporting of TIP
violations. The number of respondents to our survey indicating they had received training on
TIP issues is summarized in Figure 4. The table distinguishes between Civil Service and Foreign
Service (CS/FS) employees responding and Bureau of Consular Affairs (CA) employees who
reported.




                                                10
                                       UNCLASSIFIED
                                                UNCLASSIFIED


            Figure 4. Results of Survey of Department Asia-Pacific Region Employees: 

                      Received Training in TIP Issues



             Yes      232     118


                                                                                           CS/FS
                                                                                           Consular


             No                         1,093                          258




       Training on TIP issues is required for CA personnel in the form of a 1- to 2-hour on-line
course. However, over two thirds of (258 of 376) CA respondents indicated that they had not
received any training related to the awareness, prevention, or reporting of TIP violations.

TIP Violations May Not Be Detected or Reported

        A lack of awareness of the U.S. Government’s policy on TIP increases the possibility that
violations may not be detected or reported. The results from the General Awareness Survey
revealed that 290 Department employees (17 percent of those responding) were aware of
possible violations of the U.S. Government’s policy regarding TIP (including the procurement of
commercial sex acts) on the part of Department employees, contractors, or contractor employees.
(The countries in which General Awareness Survey respondents reported one or more violations
pertaining to TIP are shown in Table 1.) However, only one TIP allegation had been reported to
OIG’s Office of Investigations.5

        The Department has not issued any guidance to its employees in the FAM or the FAH on
how to report possible TIP violations they may be aware of. Bureau of Diplomatic Security (DS)
officials stated that guidance had been issued regarding the reporting and investigation of
suspected TIP violations involving the issuance of visas and passports and the use of domestic
help. However, DS had not issued guidance on reporting potential TIP violations involving
Department employees or contractors.




5 The General Awareness Survey data pertaining to the possible TIP violations shown in Table 1 was referred to the
Department’s Office of Inspector General, Office of Investigations.
                                                        11
                                                UNCLASSIFIED
                                            UNCLASSIFIED




 Table 1. Survey Respondents Reporting                             The TVPRA of 2005 extended U.S.
          One or More Violations *                         criminal jurisdiction to Federal Government
                                                           employees and contractors for trafficking
     Country              Violations           %           offenses committed abroad. DS officials
     China                       37          13%           stated it would be appropriate for TIP
     Korea                       35          12%           violations to be reported initially to the
     Vietnam                     32          11%           Regional Security Officer at post to ensure the
     Japan                       31          11%           integrity of evidence and have the ability to
     Indonesia                   30          10%           prosecute and obtain criminal convictions.
     Thailand                    28          10%           However, A/OPE officials stated that all
     Taiwan                      20           7%           contractor violations should be reported to the
     Philippines                 18           6%           contracting officers. Also, an official from
     Laos                        13           4%           OIG’s Office of Investigations stated that
     Cambodia                    12           4%           allegations of TIP violations should be
     Burma                         8          3% 
                                                           reported to the OIG hotline.
     Fiji                          6          2% 
     Singapore                     6          2% 
                                                                   DS officials stated that it was unclear
     Australia                     2          1% 
                                                           whether their authority extended to the
     Hong Kong                     2          1% 
                                                           investigation and followup of violations of
     Malaysia                      2          1% 
                                                           FAR clause 52.222-50. However, they
     EAP/Washington                2          1% 
                                                           believed that initial reporting should be
     Other                         2          1% 
                                                           directed to the Regional Security Officer at
     Brunei                        1          0% 
                                                           post and that possible violations should be
     Mongolia                      1          0% 
                                                           referred to other organizations (for example,
     Papua New Guinea              1          0% 
                                                           OIG’s Office of Investigations, A/OPE, or
     Timor‐Leste                   1          0% 
                                                           G/TIP) depending on the nature of the
     Total                      290         100% 
                                                           information reported.
 * Responses to the General Awareness Survey were
 not received from French Polynesia, Micronesia,        The lack of an effective and clear
 Palau, Samoa, and Solomon Islands. The Marshallmechanism for reporting TIP violations means
 Islands and New Zealand did not report violations.
                                                that the Department may not know the actual
                                                number of TIP violations that may be
occurring, and employees and contractors may therefore not be held accountable for TIP
violations.

         Recommendation 1. We recommend that the Office to Monitor and Combat Trafficking
         in Persons include, in the Foreign Affairs Manual, the U.S. Government policy regarding
         trafficking in persons (TIP) to include the definition of TIP activity and information on
         the prohibition against involvement in acts of TIP for Department of State personnel and
         contractors, the associated penalties for violations, and the mechanism to report such
         violations.

         Management Response: G/TIP “generally concurs” with the recommendation and
         suggested “the formation of an internal department working group on TIP to amend the
         FAM, with M [the Under Secretary for Management] and G/TIP as co-chairs.”

                                                      12
                                            UNCLASSIFIED
                                UNCLASSIFIED




OIG Analysis: OIG considers the recommendation resolved, pending receipt and review
of documentation showing that the Foreign Affairs Manual has been amended to include
a Department policy on trafficking in persons.

Recommendation 2. We recommend that the Office to Monitor and Combat Trafficking
in Persons, in consultation with the Office of the Legal Adviser and the Director General
of Human Resources, develop and include a trafficking in persons policy in the
Department of State Standards of Conduct.

Management Response: G/TIP “generally concurs” with the recommendation, stating
that the United States Agency for International Development “recently put in place a
revised standard of conduct relating to TIP which may be a good starting point for
Department discussions on this matter.”

OIG Analysis: OIG considers the recommendation resolved, pending receipt and review
of documentation showing that the Department of State Standards of Conduct contains a
policy on trafficking in persons.

Recommendation 3. We recommend that the Office to Monitor and Combat Trafficking
in Persons, in consultation with the Department of State’s (Department) Office of
Inspector General, Office of Investigations, the Bureau of Diplomatic Security, the Office
of the Procurement Executive, and the Under Secretary for Management, designate an
office within the Department responsible for establishing and implementing an effective
mechanism for employees to report trafficking in persons violations.

Management Response: G/TIP “generally concurs” with the recommendation, stating
that “there needs to be a clear POC [point of contact] in the Department for reporting TIP
violations” but believes the action office should be the Under Secretary for Management.

OIG Analysis: Although G/TIP is the best office to lead action for this recommendation,
as it has been charged with coordinating the United States fight against human trafficking
both internationally and across the U.S. Government, including pursuing policies that
uphold TIP goals, we agree that the Under Secretary for Management should be
consulted during the process. OIG considers the recommendation resolved, pending
receipt and review of documentation showing that an effective mechanism for employees
to report trafficking in persons violations has been implemented.

Recommendation 4. We recommend that the Office to Monitor and Combat Trafficking
in Persons, in consultation with the Foreign Service Institute and the Director General of
Human Resources, expand trafficking in persons (TIP) training to all Department of State
employees to include increasing the awareness of the U.S. Government’s zero tolerance
policy toward TIP and reducing the incidence of TIP activity involving contractor
personnel and employees who represent the United States abroad.



                                        13
                                UNCLASSIFIED
                                        UNCLASSIFIED


       Management Response: G/TIP “generally concurs” with the recommendation, stating
       that the Department is already working within an interagency TIP policy group to
       develop “an online General Awareness training that would be made available to all USG
       [U.S. Government] personnel, which could be used to help implement this 

       recommendation.” 


       OIG Analysis: OIG considers the recommendation resolved, pending receipt and review
       of documentation showing that TIP training has been expanded to all Department
       personnel.

Finding B. Contractors Are Not Complying With Requirements of Federal
Acquisition Regulation Clause 52.222-50
        Contractors in the Asia-Pacific region were not aware of and therefore did not comply
with the obligations under FAR clause 52.222-50. Specifically, contractors were not notifying
their employees of the U.S. Government’s policy regarding TIP and the actions that would be
taken against them for violations of the policy, nor were they including the TIP clause in their
subcontracts. Contractor officials stated that they were not aware of their obligations because the
FAR clause is included only by reference in the contracts and that they had not read the full text
of the clause. Also, the clause was not included in any form (reference or full text) in 27 percent
of the contracts we reviewed, thereby completely failing to alert contractors of their obligations
with respect to TIP. Further, even when the clause was contained in contracts, Department
contracting officials did not monitor contractor compliance with the clause. As a result,
Department contractors, subcontractors, and their respective employees may not be aware of the
U.S. Government’s zero tolerance policy regarding trafficking in persons.

FAR Requirement

        Contractors with Department contracts are obligated to abide by all applicable FAR or
Department acquisition regulation clauses contained in their contracts. FAR clause 52.222-50 is
a mandatory clause that must be included in all Federal contracts above the micro-purchase level.
This clause communicates the U.S. Government’s zero tolerance policy regarding trafficking in
persons and establishes contractor obligations to notify employees of the U.S. Government’s
zero tolerance policy regarding TIP and the actions that will be taken against them for violations
of this policy; include the substance of FAR clause 52.222-50 in all subcontracts, including the
requirement that subcontractors should include the substance of the clause in their subcontracts
as well; take appropriate action against employees or subcontractors who violate the policy; and
notify the contracting officer immediately of any information it receives from any source,
including host country law enforcement, alleging that a contractor employee, subcontractor, or
subcontractor’s employee has engaged in conduct that violates this policy and any actions taken
by the company against contractor employees, subcontractors, or subcontractors’ employees
pursuant to this clause. (The full text of this clause is in Appendix C.)




                                                14
                                        UNCLASSIFIED
                                        UNCLASSIFIED



Contractor Compliance - Site Visits

        We visited 24 Department contractors located in three countries within the Asia-Pacific
region whose contracts included the applicable FAR clause 52.222-50. Of the 24 contractors
visited, we found that 20 contractors (83 percent) had not notified their employees of the U.S.
Government’s policy regarding TIP and that 22 contractors (92 percent) had not informed their
employees of the actions that would be taken against them for violations of the policy. Six
contractors had hired subcontractors for the performance of services. None of these six
contractors had included the substance of FAR clause 52.222-50, as required, in their
subcontracts.

        Except for one company in Thailand, all contractors with whom we met told us they were
substantially in compliance with the intent of the FAR clause and were not involved in any forms
of human trafficking. Representatives of the excepted company stated that they felt they were
not in technical compliance as they were not aware of the clause in the contract and had not
notified their employees. In addition, another large company in the Philippines also was not
aware of the FAR clause but believed the company was substantially in compliance with the
clause because of its business ethics policies.

Contractor Compliance via Request for Information From Contracting Officers

       In addition to the 24 contracts examined at the three overseas posts visited, we also
reviewed 69 contracts in the Asia-Pacific region that contained FAR clause 52.222-50 to
determine whether the obligations with the clause were fulfilled. Of these 69 contracts, the
following results were reported by 63 contractors:

      Twenty-five contractors (40 percent) had not notified their employees of the U.S.
       Government’s TIP policy or of the actions that would be taken for violations of the
       policy.
      Seventeen contractors reported they had hired subcontractors. Only 10 (59 percent) of
       these 17 contractors had included the substance of FAR clause 52.222-50 in their
       subcontracting agreements, as required by the FAR clause.

Lack of Awareness

         Because the full text of the clause was not included in contracts, the contractors were not
aware of their obligations under the FAR clause, which they attributed to their noncompliance.
Current procurement procedures provide for FAR clause 52.222-50 to be included in
solicitations and contracts by reference only (that is, showing the heading of the clause and the
date with no additional details). This procedure requires contractors to visit an Internet Web site
or refer to a printed version of the FAR in order to obtain the full text of the clause. Therefore,
contractor officials may not be aware of the contents of the clause and specific actions they are
required to take. For example, contractor officials stated they had read the heading but did not
obtain the full text of the FAR clause, as they did not believe their respective company had any
involvement with trafficking in persons. As a result, they were not aware of specific obligations
in their contract to notify their employees of the U.S. Government’s TIP policy, the prohibition

                                                 15
                                        UNCLASSIFIED
                                        UNCLASSIFIED


against the procurement of commercial sex acts, and the requirement to report possible violations
to their contracting officer.

        In Thailand, we met with officials from a major international law firm providing services
to the U.S. embassy. A partner directly responsible for the work informed us that he was
unaware of FAR clause 52.222-50 and its provisions prior to our request for a meeting. He
stated that he was actually surprised to learn that there were actions required of his firm in order
to be in full compliance with the FAR clause.

Missing or Incorrect FAR Clause Included in Contracts

        We reviewed 41 contracts in the Asia-Pacific region to assess whether FAR clause
52.222-50 had been included in the contracts in accordance with procurement regulations.
Contracts with a place of performance at locations in the Asia-Pacific region were selected for
review from the Federal Procurement Data System (FPDS) for FYs 2009 and 2010. Although
required, FAR clause 52.222-50 was either omitted or was improperly included in 19 (46
percent) of the 41 contracts reviewed, thereby causing such contractors to be unaware of its
provisions. For the 19 contracts, we found that 11 contracts did not contain the clause and were
awarded after April 19, 2006 (the date after which the FAR clause became mandatory), and that
eight contracts did not contain the correct version of the clause based on the contract award date
and FAR in effect at that time.

       Contracting officers in EAP and officials from the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management (A/LM/AQM), provided various
reasons for omitting the FAR clause or including it in an incorrect form as follows: The contract
template used to prepare the contract did not contain any reference to the FAR clause, the
accompanying instructions for the template did not identify the FAR clause as being mandatory,
and the erroneous belief that the FAR clause was not required to be included until February
2009. In other cases, the contracting officer with responsibility for the original contract award
was no longer either in A/LM/AQM or at the post location.

Monitoring Compliance

        As of February 2011, Department procurement policies did not require contracting
officers and contracting officer’s representatives to verify that contractors are complying with
their obligations under FAR clause 52.222-50. In addition, Department contracting officers and
contracting officer’s representatives in the Asia-Pacific region confirmed to us during meetings
that they were not verifying contractor compliance with obligations contained in FAR
clause 52.222-50.

        Department contractors, subcontractors, and subcontractor employees may not be aware
of the U.S. Government’s zero tolerance policy regarding TIP. When contractors do not notify
their employees of the policy regarding TIP and do not include the substance of the clause in
subcontracting agreements, there is a missed opportunity to communicate the U.S policy more
widely in the Asia-Pacific region, that is, through all contractors, subcontractors, and
subcontractor employees doing business with the U.S. Government.

                                                 16
                                        UNCLASSIFIED
                                               UNCLASSIFIED


        For contractors in the Asia-Pacific region, if FAR clause 52.222-50 is omitted from a
contract, the U.S. Government may not be able to hold contractors responsible for provisions of
the clause and enforce penalties for TIP violations. This is different from situations involving
U.S.-based contractors. In the United States, if the FAR requires that a clause that addresses an
important topic be included in a Government contract and if the Government’s acquisition
personnel omit the clause without authorization, the agency boards of contract appeals and the
Federal courts may interpret the contract as though the clause were, in fact, included. This is
done pursuant to a legal doctrine known as the “Christian Doctrine.”6 The principle underlying
the Christian Doctrine is that mandatory contract clauses reflecting core procurement policy are
incorporated into Government prime contracts by operation of law, even if the clauses at issue
were intentionally negotiated out of the contract. It is not clear that this doctrine would apply in
countries and legal systems outside the United States. As a result, the U.S. Government is not
well-positioned to hold the contractor responsible for complying with the contract provisions
related to TIP.

       Finally, contractor employees may be aware of, but are not reporting, contractor and
contractor employee violations of the U.S. Government’s TIP policy.

Review of Findings and Preliminary Recommendations

        On March 15, 2011, we met with officials from A/OPE to discuss the need for enhanced
internal controls over the procurement process to ensure that mandatory FAR clause 52.222-50
was included in all contracts. We also discussed that, similar to other FAR clauses, there was no
specific requirement for contracting officers or contracting officer’s representatives to monitor
contractor compliance with FAR clause 52.222-50. We also communicated the feedback
received from contracting officers and contracting officer’s representatives, as well as from the
24 contractors visited, as part of the compliance testing–specifically, that the majority of the
contractors with whom we met were not aware of the FAR clause and the actions required of the
company in order to be in compliance with the clause. We informed A/OPE of contractors’
requests that the full text of the FAR clause should be included in contracts. We also discussed a
potential method of monitoring contractor compliance with FAR clause 52.222-50.

Subsequent Management Actions

       On March 24, 2011, A/OPE issued Procurement Information Bulletin (PIB) No. 2011-09,
“Combating Trafficking in Persons,” to provide TIP guidance to contracting officers and
contracting officer’s representatives. This publication requires contracting officers and
contracting officer’s representatives to ensure that all solicitations and contracts over the micro-
purchase threshold ($3,000) contain FAR clause 52.222-50, to provide the clause in full text to
ensure that contractors understand clause requirements if needed, and to provide guidance on
how contracting officers and contracting officer’s representatives can monitor TIP compliance.

      Since PIB No. 2011-09 addresses the causes for Finding B, we are not making any
recommendations in this regard.


6 See G.L Christian & Assocs. v. U. S., 312 F.2d 418, 160 Ct. Cl. 1 (1963).

                                                         17
                                               UNCLASSIFIED
                                      UNCLASSIFIED


                                         Other Matters
        Contractor representatives told us it would be helpful if the U.S. Government could
provide additional materials to help them understand and comply with their obligations in FAR
clause 52.222-50. This could include, for example, an overview of the contractor’s
responsibilities under FAR clause 52.222-50 and a sample notification that could be provided to
employees.

        During the meeting with A/OPE officials on March 15, 2011, we discussed the benefit of
providing contractors information on what constitutes TIP activity, how and where to report
suspected TIP violations, how to document notification of employees on the U.S. Government’s
zero tolerance policy, and on other topics.

        One concept communicated to us by contractors was the following: If the clause and
policy area were important to the U.S. Government, the Government could do a better job of
explaining contractor requirements in this area.

        During our meeting with the Director of G/TIP on March 21, 2011, we also discussed the
concept of providing contractors with TIP awareness materials. Therefore, although not required
by the TVPRA or NSPD-22, we suggest that G/TIP, in consultation with A/OPE, develop and
distribute guidance to contractors to help them comply with their obligations under FAR clause
52.222-50.




                                               18
                                      UNCLASSIFIED
                                       UNCLASSIFIED


                                List of Recommendations
Recommendation 1. We recommend that the Office to Monitor and Combat Trafficking in
Persons include, in the Foreign Affairs Manual, the U.S. Government policy regarding
trafficking in persons (TIP) to include the definition of TIP activity and information on the
prohibition against involvement in acts of TIP for Department of State personnel and contractors,
the associated penalties for violations, and the mechanism to report such violations.

Recommendation 2. We recommend that the Office to Monitor and Combat Trafficking in
Persons, in consultation with the Office of the Legal Adviser and the Director General of Human
Resources, develop and include a trafficking in persons policy in the Department of State
Standards of Conduct.

Recommendation 3. We recommend that the Office to Monitor and Combat Trafficking in
Persons, in consultation with the Department of State’s (Department) Office of Inspector
General, Office of Investigations, the Bureau of Diplomatic Security, the Office of the
Procurement Executive, and the Under Secretary for Management, designate an office within the
Department responsible for establishing and implementing an effective mechanism for
employees to report trafficking in persons violations.

Recommendation 4. We recommend that the Office to Monitor and Combat Trafficking in
Persons, in consultation with the Foreign Service Institute and the Director General of Human
Resources, expand trafficking in persons (TIP) training to all Department of State employees to
include increasing the awareness of the U.S. Government’s zero tolerance policy toward TIP and
reducing the incidence of TIP activity involving contractor personnel and employees who
represent the United States abroad.




                                               19
                                       UNCLASSIFIED
                                               UNCLASSIFIED



                                                                                                      Appendix A

                                        Scope and Methodology
         Scope

        Our audit covered Department of State-awarded contracts with a place of performance in
the Asia-Pacific region for FYs 2009, 2010, and 2011.1 Our audit also included a review of
policies and procedures at Department headquarters and Bureau of East Asian and Pacific
Affairs (EAP) post locations that were designed to prevent the use of forced labor on contracts
and reduce the incidence of trafficking in persons (TIP) activity involving Department
employees, contractors, and their employees.

         Methodology

         RM Advisory Services LLC

         	 Interviewed Department personnel in headquarters and EAP with responsibility for or
            involvement in establishing TIP-related policies and procedures, including the
            Director of the Department’s Office to Monitor and Combat Trafficking in Persons
            (G/TIP).

         	   Reviewed documentation, including Foreign Affairs Manual (FAM) and Foreign
              Affairs Handbook (FAH) policy manuals, cables, emails, and other written
              communications, relating to policies and procedures established to prevent the use of
              forced labor on contracts and reduce the incidence of TIP activity involving
              Department employees and contractors.

         	 Made inquiries of officials in embassies and consulates in the Asia-Pacific region
            regarding policies and procedures in place with respect to TIP, as described in the
            section “Request for Information to Post Locations” in this appendix.

         	 Performed site visits and interviewed officials in the U.S. embassies in Thailand, the
            Philippines, and Indonesia regarding policies and procedures in place to prevent the
            use of forced labor on contracts and reduce the incidence of TIP activity involving
            Department employees or contractors, as described in the section ”Embassy Site
            Visits” in this appendix.

         	 Designed and implemented the General Awareness Survey to obtain feedback from
            Department employees in the Asia-Pacific region and at EAP, as described further in
            Appendix B.




1 The Office of Inspector General selected the Asia-Pacific region as an area satisfying the “heightened risk”
standard required by the William Wilberforce Trafficking Victims Protection Reauthorization Act of 2008.
                                                         20
                                               UNCLASSIFIED
                                       UNCLASSIFIED


       	 Reviewed 41 contracts between the Department and contractors with a place of
          performance in the Asia-Pacific region, as described in “FAR Clause Testing” in this
          appendix.

       	 Reviewed a sample of 87 Department contractors to assess the contractors’
          compliance with obligations in their respective contracts under FAR Clause 52.222-
          50, “Combating trafficking In Persons.” This testing was performed in two parts:

           o	 Site visits and in-person meetings with representatives of 24 contractors in
              Thailand, the Philippines, and Indonesia.

           o	 Email inquiries to 63 additional contractors in the Asia-Pacific region with a place
              of performance in countries other than Thailand, the Philippines, and Indonesia.

      Further information is included in the section “Contractor Compliance Testing” in this
appendix.

       Request for Information to Post Locations

       We made inquiries to embassies and consulates in the Asia-Pacific region regarding the
following:

       	 Policies and procedures in place at the post location to prevent the use of trafficked
          labor on U.S. Government contracts and reduce the incidence of TIP involving
          Department employees and contractors.
        Training provided to Department employees on TIP.
        TIP violations reported to the post involving Department employees or contractor
          companies.
        Procurement policies and procedures to address Department and contractor
          obligations with respect to FAR clause 52.222-50.

       Embassy Site Visits

       We met with officials in the U.S. embassies in Thailand, the Philippines, and Indonesia to
confirm information received in the Request for Information and identify activities unique to
each embassy with respect to TIP. Officials interviewed included contracting officers,
contracting officer’s representatives, general service officers, management counselors, human
resources officers, deputy chiefs of mission, and regional security officers.

         We also spoke with the TIP officer in each embassy regarding the overall environment in
each country with respect to TIP. The information obtained provided background and context
for the site visits to 24 contractors, as described in the section “Contractor Compliance Testing”
in this appendix.




                                                21
                                       UNCLASSIFIED
                                               UNCLASSIFIED



         FAR Clause Testing

        We reviewed 41 contracts between the Department and contractors in the Asia-Pacific
region to assess whether FAR clause 52.222-50 was included as required. For contracts selected,
we reviewed a copy of the contract to determine the following:

        Whether any version2 of FAR clause 52.222-50 was included in the contract (either in
         full text or by reference in the original contract or subsequent modification signed up to
         the date of our review).
        For contracts with the FAR clause included, whether the clause was the correct version of
         the FAR clause based on the contract award date and the FAR clause then in effect.

         Contracts were selected for review from information in the Federal Procurement Data
System (FPDS). Contracts were included in the population for possible review if they indicated
a place of performance in a country in the Asia-Pacific region and showed an action obligation in
either FY 2009 or FY 2010. Our review did not include any grants or cooperative agreements
because they were outside of the scope of our audit. The FPDS does not contain information on
the number of contractors or contracts that are currently active in the Asia-Pacific region. As a
result, we do not provide any comment as to the number of contracts that were subject to
possible review.

        Contracts were chosen for review on a judgmental basis and included a sample of
contracts with a heightened risk of TIP based on the nature of services being provided and other
factors. For purposes of this audit, contracts with a heightened risk of trafficking were deemed
to be those that met either or both of the following conditions:

        Contracts pertain to certain industries, such as construction, guard services, or other
         service industries.
        Contract services were generally provided by low-skilled or lower paid workers.

         Contractor Compliance Testing

        We reviewed a sample of 87 contractors to assess their compliance with the obligations in
their contract under FAR clause 52.222-50. The review was performed via (a) site visits and in-
person meetings with representatives of 24 contractors in Thailand, the Philippines, and
Indonesia and (b) inquiries via email to an additional 63 Asia-Pacific region contractors outside
Thailand, the Philippines, and Indonesia (that is, contractors performing services for the
Department in Asia-Pacific countries other than Thailand, the Philippines, and Indonesia). The
email inquiries were facilitated by Department procurement staff. We did not communicate
directly with contractors for this element of the testing.




2 Any version could include FAR clause 52.222-50 or alternate clauses in effect as of April 2006 (initial interim
rule), August 2007 (second interim rule), or February 2009 (final rule).
                                                         22
                                               UNCLASSIFIED
                                       UNCLASSIFIED



       (a) Site Visits and Meetings With Contractors

       We made eight site visits to contractors in each of three countries–Thailand, the
Philippines, and Indonesia–for a total of 24 site visits. During our visits, we made inquiries to
contractor personnel regarding contractor compliance with obligations in their contract under
FAR clause 52.222-50. The representatives interviewed at each contractor included at least one
manager with responsibility for oversight and/or administration of the contract, staff involved
with performance of the contract, and/or general management of the contractor.

       Inquiries were made in areas that included the following:

          Whether the contractor notified its employees of the U.S. Government’s zero
           tolerance policy and the penalties/sanctions that would be applied for violations.
          Whether any of the contractor’s employees had reported to the contractor any
           suspected instances of TIP.
          Whether the company had informed its contracting officer of any information it
           received from any source (including host country law enforcement) alleging that a
           contractor employee, subcontractor, or subcontractor employee had engaged in TIP
           activity.
          Whether the company had developed written policies/procedures to prevent and/or
           detect instances of TIP.
          Whether the company used subcontractors in the performance of the contract and, if
           so, whether the subcontracting agreement included the flow down of FAR clause
           52.222-50, as required by the company’s contract.

        Contractors were selected for site visits based on information in FPDS using data for FYs
2010 and 2011 and were limited to those with FAR clause 52.222-50 in their contracts. We
relied on assistance from post General Service Officers to select and coordinate meetings with
contractors in their respective countries. To be eligible for a site visit, the contractor company
had to (a) have FAR clause 52.222-50 in its contract, (b) agree to meet with the audit team, (c)
have employees actively working on the contract available to interview, and (d) be located
within an acceptable commuting distance from the embassy. Contracts were reviewed by the
audit team prior to conducting the on-site visits.

       (b) Contractor Compliance Testing via Request for Information From Contracting
       Officers

        With assistance of staff from the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management (A/LM/AQM), and EAP procurement staff,
we made inquiries of 63 additional contractors in the Asia-Pacific region to assess their
compliance with obligations in FAR clause 52.222-50. The inquiries made were similar to those
listed for contractor site visits. However, for this testing, we emailed our questions to
contracting officers and contracting officer’s representatives at post who obtained the
information requested for the contractors selected on our behalf. The targeted population for this
audit step was those contractors in the Asia-Pacific region that had FAR clause 52.222-50 in
their contracts.

                                                23
                                       UNCLASSIFIED
                                             UNCLASSIFIED




        Contracts were selected for compliance testing via email from information in FPDS using
data for FYs 2010 and 2011. The population of contracts subject to contractor compliance
testing via email was limited to contracts with a place of performance in Asia-Pacific countries
other than Thailand, the Philippines, and Indonesia (where compliance was assessed through site
visits and meetings with contractor representatives).

        Our methodology for selecting contractors subject to compliance testing under this audit
step was as follows: We obtained a report from FPDS showing Action Obligations in FYs 2010
and 2011 to the date of our review and that had a place of performance in an Asia-Pacific region
country. We chose the 2010 and 2011 fiscal years to identify contracts that were more likely to
have FAR clause 52.222-50 in their contract and to be active as of the date of our review, which
would increase the response rate. We chose items for possible testing that had the following
attributes:

       An NAICS3 code of 23xxx, 56xxx, 71xxx and 72xxx. These NAICS codes included
        contracts related to construction contracts, security guard and patrol services, and hotels
        and that potentially had an elevated risk of TIP activity.
       A place of performance in a country other than Thailand, the Philippines, and Indonesia.
       An Action Obligation value greater than $50,000.
       Contracts were chosen on a judgmental basis and included a sample of contracts with a
heightened risk of TIP based on the nature of services being provided and other factors.

         Contractors selected for compliance testing via request for information from contracting
officers were located in the following Asia-Pacific countries: Australia, Brunei, Burma,
Cambodia, China, East Timor, Fiji, Japan, Laos, Malaysia, Micronesia, Mongolia, New Zealand,
Papua New Guinea, Samoa, Singapore, South Korea, Taiwan, and Vietnam. The audit team met
with a sample of contractors directly in Thailand, the Philippines, and Indonesia to assess
compliance with FAR 52.222-50 and, as a result, did not include contractors from those
countries in this audit step.

         FPDS does not maintain information on the number of active contractors or active
contracts in the Asia-Pacific region at any one point in time. In addition, many contractors are
actively working in the Asia-Pacific region without obligations under FAR clause 52.222-50 as a
result of contracts signed prior to the effective date of the FAR or an omission by the contracting
officers in including the required clause in their contracts.

        The methodology used to pick the sample also does not provide any indication as to the
number of active contractors in the Asia-Pacific region for the following reasons: First, FPDS
does not maintain information on the number of active contractors or active contracts in the
Asia-Pacific region at any one point in time, and our sample was chosen from information in this
system. Second, we limited our selection to contracts showing an Action Obligation in either FY
2010 or FY 2011. There are additional contractors active in the Asia-Pacific region with


3 North American Industry Classification System.

                                                   24
                                             UNCLASSIFIED
                                                UNCLASSIFIED


contracts signed prior to these years. As a result, we provide no comment as to the number of
the contractors in the Asia-Pacific region with FAR clause 52.222-50 in their contracts.

         Summary of Procedures Performed
                                                                          Purpose of Procedure
                                                                                                     Assess
                                                            Assess             Determine if       Contractor
                                             Number      Compliance            FAR Clause         Compliance
                                              of Items With Procurement        is Present in    With Obligations
                                             Reviewed     Regulations           Any Form         in 52.222-50

Review of contracts for FAR clause               41               √                  √

Site visits and meetings with contractors        24                                  √                  √

Contract compliance review via email             63                                  √                  √

        Work Related to Internal Controls

        Our procedures included inquiries regarding internal control activities in place to prevent
the use of forced labor in the performance of contracts and reduce the incidence of TIP activity
involving Department employees and contractors in the Asia-Pacific region. Our
recommendations with respect to additional internal control activities are reported herein.

         Use of Computer-Processed Data

         We relied on computer-processed data in FPDS to select contracts for FAR clause testing,
site visits, and contractor compliance testing.

        Our audit scope did not provide for validation of data in FPDS. However, we identified
instances where data elements in FPDS were either incorrect or incomplete. For example, two
contracts out of 50 contracts selected for FAR clause review listed an incorrect place of
performance in FPDS. Many contracts listed in FPDS did not have an NAICS4 code or DUNS5
number, which prevented us from understanding the nature and/or type of service being provided
under the contract. This affected our ability to identify contracts with a heightened risk of
trafficking, as required under the WWTVPRA. Our observation regarding the data in FPDS was
communicated to A/LM/AQM for further assessment and/or corrective action. Further inquiries
were outside the scope of this audit.


4 NAICS was developed as the standard for use by Federal statistical agencies in classifying business establishments
for the collection, analysis, and publication of statistical data related to the business economy of the United States.
5 The Data Universal Numbering System (DUNS) Number is a unique 9-digit identification sequence that provides
unique identifiers of single business entities. The DUNS numbering system is a widely recognized standard for
identifying businesses among thousands of companies, marketplaces, and regulatory entities. Companies worldwide
use the DUNS Number to link information about suppliers, customers and trading partners, providing a more
complete picture of the risk and opportunity in their business relationships.
                                                          25
                                                UNCLASSIFIED
                                        UNCLASSIFIED

       We believe that the issues identified with respect to data in FPDS did not affect the
findings and recommendations in our report.

       Other Information

       We conducted our audit fieldwork from November 2010 through March 2011 in
accordance with Government Auditing Standards, issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

        The audit was not designed to detect instances of TIP involving Department personnel or
contractors. Further, our report does not provide any opinion or assurance as to any individual
contractor’s compliance with relevant laws, regulations, and provisions in its contract. Our
report also does not provide an opinion or any assurance on the adequacy of the Department’s
policies and procedures overall to comply with relevant laws and regulations and prevent TIP
activity. Department management remains responsible for implementing policies, procedures,
and controls necessary to comply with all laws, regulations, and policies applicable to its
operations, including those pertaining to TIP.

       We did not find evidence of any severe form of TIP involving Department employees or
contractors or the use of forced labor in the performance of any contract. Information received
through the General Awareness Survey regarding possible TIP activity involving Department
employees and/or contractors was referred to OIG’s Office of Investigations for further inquiry.

        Our audit scope involved contracts in EAP and internal control activities at Department
level and in EAP that were designed to prevent the use of forced labor on contracts and reduce
the incidence of TIP activity among employees. We are unable to state, and therefore provide no
comment on, whether our findings and recommendations apply to other Department bureaus and
regions.

       Prior OIG Reports

        Performance Evaluation of Department of State Contracts to Monitor Vulnerability to
Trafficking in Persons Violations in the Levant (MERO-I-11-07, March 2011). For 10 contracts
evaluated at the U.S. embassies in Israel, Jordan, Lebanon, and Syria and at Consulate General
Jerusalem, OIG found no direct evidence that contractors violated the provisions of the
Trafficking Victims Protection Act of 2000 (TVPA) or FAR mandatory clause 52.222-50.
Specifically, OIG found no evidence that contractors were engaged in sex trafficking or illicit
activities related to involuntary servitude, peonage, debt bondage, or slavery as defined by U.S.
law.

       Performance Evaluation of PAE Operations and Maintenance Support for the Bureau of
International Narcotics and Law Enforcement Affairs Counternarcotics Compounds in
Afghanistan (MERO-I-11-02, Feb. 2011). OIG developed a questionnaire to determine whether
PAE has been complying with the terms of FAR clause 52.222-50. OIG found that the FAR
                                                26
                                        UNCLASSIFIED
                                      UNCLASSIFIED


clause was added to a PAE task order in July 2009, 6 months after it had been in place. In
structured interviews with third-country national, PAE employees, and guard force personnel at
Kunduz, OIG also found no indication or evidence that PAE employees or guards had been
subjected to illegal TIP. The OIG team found no evidence that PAE was recruiting or
maintaining labor through the use of force, fraud, or coercion.

        Performance Evaluation of Department of State Contracts to Assess Risk of Trafficking in
Persons Violations in Four States in the Cooperation Council for the Arab States of the Gulf
(MERO-I-11-06, Jan. 2011). The Middle East Regional Office (MERO) of the Office of
Inspector General issued Report Number MERO-I-11-06 in January 2011, Performance
Evaluation of Department of State Contracts to Assess the Risk of Trafficking in Persons
Violations in Four States in the Cooperation Council for the Arab States of the Gulf. The
objectives of the evaluation were (a) to determine whether Department-funded contractors and
subcontractors are engaged, knowingly or unknowingly, in acts related to trafficking in persons
and (2) to determine whether U.S. embassies are following Federal guidelines to effectively
monitor Department-funded contractors and subcontractors for engagement in acts related to
TIP. The performance evaluation found no evidence in Kuwait, Oman, Saudi Arabia, or the
United Arab Emirates (U.A.E.) that Department-funded contractors were engaged in severe
forms of TIP, solicitation of commercial sex acts, sex trafficking, or involuntary servitude as
defined by Section 103 of the TVPA. OIG identified contractor practices indicating an increased
risk of TIP as defined by the International Labor Organization at all four embassies in Kuwait,
Oman, Saudi Arabia, and the U.A.E. and at the two consulates general in Saudi Arabia and the
U.A.E.

         PAE Operations and Maintenance Support at Embassy Kabul, Afghanistan (MERO-I-11-
05, Dec. 2010). OIG found that the FAR clause was added to a PAE task order in July 2009,
after it had been in place for 6 months. OIG developed a questionnaire to determine whether
PAE has been complying with the terms of FAR clause 52.222-50. In structured interviews with
third-country national PAE employees and guard force personnel at Kunduz, OIG found no
indication or evidence that PAE employees or guards had been subjected to illegal TIP. The
OIG team found no evidence that PAE was recruiting or maintaining labor through the use of
force, fraud, or coercion.

        The Bureau of Diplomatic Security Kabul Embassy Security Force (KESF), Performance
Evaluation (MERO-A-10-11, Sept. 2010). OIG found that the KESF contract contains FAR
clause 52.222-50 as required. The OIG team developed a questionnaire to determine whether
AGNA is complying with the terms of the clause. In structured interviews with 69 KESF guards
chosen at random, the OIG team found no evidence that AGNA was recruiting or maintaining
labor through the use of force, fraud, or coercion.

        The Bureau of DS Baghdad Embassy Security Force (BESF, Performance Audit (MERO-
A-10-05, March 2010). OIG found that the BESF contract contains FAR clause 52.222-50 as
required. The OIG team developed a questionnaire to determine whether Triple Canopy was
complying with the terms of the FAR clause. In structured interviews with the BESF guards, the
OIG team found no evidence that Triple Canopy was recruiting or maintaining labor through the
use of force, fraud, or coercion.

                                              27
                                      UNCLASSIFIED
                                       UNCLASSIFIED


        Report of Inspection, The Office to Monitor and Combat Trafficking in Persons (ISP-I-
06-04, Nov. 2005). OIG found that, with strong backing from the Congress and the
administration, the Office to Monitor and Combat Trafficking in Persons (G/TIP) has
successfully made monitoring and combatting trafficking an important foreign policy goal.
G/TIP and the regional bureaus are beginning to improve their working relations, and procedures
are in place to resolve most major policy differences. Although the fight against trafficking for
sexual purposes has dominated its agenda, G/TIP has also given appropriate attention to the
trafficking involved in such areas as child labor, bonded labor, and involuntary servitude. OIG
recommended that G/TIP use the Bureau Performance Plan to prioritize the many useful
activities it could do and strengthen grants management.




                                               28
                                       UNCLASSIFIED
                                        UNCLASSIFIED



                                                                                      Appendix B


                                General Awareness Survey
        We performed a survey of Department of State (Department) employees in the Asia-
Pacific region to assess whether they were aware of issues related to trafficking in persons.

        The General Awareness Survey was performed with the assistance of Bureau of East
Asian and Pacific Affairs (EAP) management and by using a Department Web-based survey
tool. The survey was sent by EAP management to personnel in EAP in Washington, DC, and to
all post locations in the Asia-Pacific region. At EAP post locations, the survey was provided to
all personnel with active OpenNet accounts and therefore included a combination of Department
employees (foreign and domestic), military personnel assigned to a post location, employees of
tenant agencies, contractor personnel, and other personnel associated with the post location. All
personnel responding were representatives of or associated with the U.S. Government and would
be expected to have knowledge of, and abide by, the U.S. Government’s policy regarding
trafficking in persons (TIP).

        A total of 1,929 individuals responded to this survey. Of that total, 1,702 individuals
were Department employees out of a potential 7,212 Department respondents with active
OpenNet accounts. This survey was sent to countries in the Asia-Pacific region and to EAP
locations in the United States. We received responses from 22 of 27 countries surveyed, as well
as responses from EAP locations in the United States. This survey was conducted from
December 6, 2010, to January 19, 2011. The analysis in Finding A of this report is based on the
responses from the 1,702 Department employees.

      The survey as it was displayed after the respondent logged into an OpenNet account is
shown as follows:

       General Awareness Survey Regarding the U.S. Government’s Zero Tolerance
                       Policy Regarding Trafficking in Persons
     The purpose of this survey is to assess the general awareness of personnel assigned to
     the East Asia and Pacific Affairs (EAP) Bureau with respect to:

            their awareness/knowledge of the U.S. Government’s zero-tolerance policy
             regarding all forms of human trafficking;
            their knowledge of any trafficking in persons (TIPs)-related activity affecting
             contracting companies in the EAP region; and,
            their knowledge of specific policies/procedures related to TIPs.

         FAR clause 52.222-50 is required to be included in all contracts between the U.S.
         Government and commercial companies. This FAR clause:

         (a) establishes and communicates the U.S. Government's zero tolerance policy
             regarding trafficking in persons to companies contracting with the U.S.
                                                29
                                        UNCLASSIFIED
                                  UNCLASSIFIED


       Government;
   (b) prohibits contractors and contractor employees from:
        Engaging in severe forms of trafficking in persons during the period of
           performance of the contract;
        Procuring a commercial sex act during the period of performance of the
           contract; 

        Using forced labor in the performance of a contract. 

   (c) requires government contracting companies to notify their employees of (i) the
       U.S. Government’s zero tolerance policy and (ii) the actions that would be
       taken for violation of this policy, and up to and including contract and/or
       employee termination;
   (d) requires immediate notification of the contracting officer if any violations of
   the zero tolerance policy are suspected.

   You will have an opportunity at the end of the survey to provide comments in a
   completely confidential manner. All responses will be treated in the strictest of
   confidence. Your response should not require more than 10-15 minutes to
   complete.

*=Required
Name
Email
1) *Prior to receiving this survey were you aware of the U.S. Government’s zero
tolerance policy regarding all forms of human trafficking, whether by government
personnel, contracting companies, their employees or their subcontractors?
Very aware
Somewhat Aware
Not at all Aware
2) *Are you aware that the Department of State prohibits its personnel from any form
of involvement with human trafficking; including the procurement of commercial sex
acts whether or not such activity is legal in the country in which it is procured?
Very Aware
Somewhat Aware
Not at all Aware
3) *Are you aware of policies or procedures in effect in the EAP Bureau or at your
Post location which relate to the awareness, prevention or reporting of TIPs
violations?
Very Aware
Somewhat Aware
Not at all Aware


                                          30
                                  UNCLASSIFIED
                                  UNCLASSIFIED



4) *Have you received any training related to the awareness, prevention or reporting
of TIPs violations?
Yes
No

5) *Are you aware of any violations (which may include the procurement of
commercial sex acts) of the U.S. Government’s zero tolerance policy regarding
trafficking in persons on the part of:
Department of State employees and personnel
Contractor companies, or their employees
Subcontractor companies, or their employees
Not Aware of Any Potential Violations
Comments:

6) *Are you aware of the Department’s rules, regulations and policies concerning the
employment of domestic staff, including those in “3 FAM 8612.2 U.S. Government
Employees Employing Domestic Staff Abroad?"
Very Aware
Somewhat Aware
Not at all Aware
Not Applicable

7) *If you encounter a victim of human trafficking, or a violation of the U.S.
Government’s policies in this area, would you know where to report the violation?
Yes
No
Comments:

8) *Are you familiar with the Department of State’s Annual Trafficking in Persons
Report?
Very Aware
Somewhat Aware
Not at all Aware
9) *Prior to receipt of this survey, were you aware of the FAR clause with respect to
trafficking in persons which is included in contracts between the U.S Government and
commercial companies?
Very Aware
Somewhat Aware
Not at all Aware

                                          31
                                  UNCLASSIFIED
                                   UNCLASSIFIED



  Please provide some information about yourself.

10) *What Bureau are you with? Use comment box if "Other".
 EAP
 Other Department of State
 Not Department of State
Comments:

11) *Where is your duty location? If "Other" please identify in comments.
Australia                    Brunei                    Burma
Cambodia                     China                     Fiji
French Polynesia             Hong Kong                 Indonesia
Japan                        Korea                     Laos
Malaysia                     Marshall Islands          Micronesia
Mongolia                     New Zealand               Palau
Papua New Guinea             Philippines               Samoa
Singapore                    Solomon Islands           Taiwan
Thailand                     Timor-Leste               Vietnam
EAP/Washington               Other
Comments:

12) *What is your functional area at your Post location? If "Other", please provide
detail in comments.
ECON                         RSO                       PAS
POL                          CONS                      GSO
FMO                          CLO                       FAC
IRM                          HR                        MGMT
Other
Comments:

13) *Number of years of service with the Department of State?
 Less than 1
 1 - 3 years
 3 - 5 years
 5 - 10 years
 More than 10 years
Comments:



                                           32
                                   UNCLASSIFIED
                                 UNCLASSIFIED



14) *What type of employee are you? If "Other", please explain.
 Civil Service
 Foreign Service
 Host Country National
 Other
Comments:

15) *Number of years assigned to Post locations in EAP region? If "Other", please
explain.
 Less than 1

 1 - 3 years 

 3 - 5 years 

 5 - 10 years 

 More than 10 years

 Other 

Comments:
16) *Within the past year, where have you worked?
 Overseas
 Domestic (US)
 Both
Comments:


  Please feel free to provide additional comments or observations related to the
  U.S. Government’s zero tolerance policy regarding trafficking in persons.
  Your comments will be held in the strictest of confidence.

17) Optional Feedback.




  Thank you for participating




                                         33
                                 UNCLASSIFIED
                                                    UNCLASSIFIED



                                                                                                                  Appendix C

                 Text of Federal Acquisition Regulation Clause 52.222-50
52.222-50 Combating Trafficking in Persons

  As prescribed in 22.1705(a), insert the following clause:


                               COMBATING TRAFFICKING IN PERSONS (FEB 2009)

  (a) Definitions. As used in this clause— 

  “Coercion” means— 

      (1) Threats of serious harm to or physical restraint against any person;
      (2) Any scheme, plan, or pattern intended to cause a person to believe that failure to perform an act would result in serious
      harm to or physical restraint against any person; or
      (3) The abuse or threatened abuse of the legal process.
  “Commercial sex act” means any sex act on account of which anything of value is given to or received by any person.
  “Debt bondage” means the status or condition of a debtor arising from a pledge by the debtor of his or her personal services or
  of those of a person under his or her control as a security for debt, if the value of those services as reasonably assessed is not
  applied toward the liquidation of the debt or the length and nature of those services are not respectively limited and defined.
  “Employee” means an employee of the Contractor directly engaged in the performance of work under the contract who has
  other than a minimal impact or involvement in contract performance.
  “Forced Labor” means knowingly providing or obtaining the labor or services of a person—
      (1) By threats of serious harm to, or physical restraint against, that person or another person;
      (2) By means of any scheme, plan, or pattern intended to cause the person to believe that, if the person did not perform
      such labor or services, that person or another person would suffer serious harm or physical restraint; or
      (3) By means of the abuse or threatened abuse of law or the legal process.

  “Involuntary servitude” includes a condition of servitude induced by means of— 

      (1) Any scheme, plan, or pattern intended to cause a person to believe that, if the person did not enter into or continue in
      such conditions, that person or another person would suffer serious harm or physical restraint; or
      (2) The abuse or threatened abuse of the legal process. 

  “Severe forms of trafficking in persons” means—

      (1) Sex trafficking in which a commercial sex act is induced by force, fraud, or coercion, or in which the person induced to
      perform such act has not attained 18 years of age; or
      (2) The recruitment, harboring, transportation, provision, or obtaining of a person for labor or services, through the use of
      force, fraud, or coercion for the purpose of subjection to involuntary servitude, peonage, debt bondage, or slavery.
  “Sex trafficking” means the recruitment, harboring, transportation, provision, or obtaining of a person for the purpose of a
  commercial sex act.
  (b) Policy. The United States Government has adopted a zero tolerance policy regarding trafficking in persons. Contractors
  and contractor employees shall not—
      (1) Engage in severe forms of trafficking in persons during the period of performance of the contract;
      (2) Procure commercial sex acts during the period of performance of the contract; or
      (3) Use forced labor in the performance of the contract.
  (c) Contractor requirements. The Contractor shall—
      (1) Notify its employees of—
          (i) The United States Government’s zero tolerance policy described in paragraph (b) of this clause; and
          (ii) The actions that will be taken against employees for violations of this policy. Such actions may include, but are not
          limited to, removal from the contract, reduction in benefits, or termination of employment; and
      (2) Take appropriate action, up to and including termination, against employees or subcontractors that violate the policy in
      paragraph (b) of this clause.



                                                               34
                                                    UNCLASSIFIED
                                                    UNCLASSIFIED


  (d) Notification. The Contractor shall inform the Contracting Officer immediately of—
      (1) Any information it receives from any source (including host country law enforcement) that alleges a Contractor
      employee, subcontractor, or subcontractor employee has engaged in conduct that violates this policy; and
      (2) Any actions taken against Contractor employees, subcontractors, or subcontractor employees pursuant to this clause.
  (e) Remedies. In addition to other remedies available to the Government, the Contractor’s failure to comply with the

  requirements of paragraphs (c), (d), or (f) of this clause may result in—

      (1) Requiring the Contractor to remove a Contractor employee or employees from the performance of the contract;
      (2) Requiring the Contractor to terminate a subcontract;
      (3) Suspension of contract payments;
      (4) Loss of award fee, consistent with the award fee plan, for the performance period in which the Government determined
      Contractor non-compliance;
      (5) Termination of the contract for default or cause, in accordance with the termination clause of this contract; or
      (6) Suspension or debarment.
  (f) Subcontracts. The Contractor shall include the substance of this clause, including this paragraph (f), in all subcontracts.
  (g) Mitigating Factor. The Contracting Officer may consider whether the Contractor had a Trafficking in Persons awareness
  program at the time of the violation as a mitigating factor when determining remedies. Additional information about
  Trafficking in Persons and examples of awareness programs can be found at the website for the Department of State’s Office
  to Monitor and Combat Trafficking in Persons at http://www.state.gov/g/tip.

                                                         (End of clause)

      Alternate I (Aug 2007). As prescribed in 22.1705(b), substitute the following paragraph in place of paragraph (c)(1)(i)
  of the basic clause:
         (i) (A) The United States Government’s zero tolerance policy described in paragraph (b) of this clause; and
             (B) The following directive(s) or notice(s) applicable to employees performing work at the contract place(s) of
  performance as indicated below:

Document Title Document may be obtained from: Applies performance to in/at:

_____________             _____________                   _______________
______________            _____________                   _______________
     [Contracting Officer shall insert title of directive/notice; indicate the document is attached or provide source (such as
  website link) for obtaining document; and, indicate the contract performance location outside the U.S. to which the
  document applies.]




                                                               35
                                                    UNCLASSIFIED
                                                 UNCLASSIFIED



                                                                                                         Appendix D

 Current Presentation of Federal Acquisition Regulation Clause 52.222-50 in
                        Department of State Contracts

CLAUSES FOR PURCHASE ORDERS AND BLANKET PURCHASE AGREEMENTS AWARDED BY OVERSEAS
   CONTRACTING ACTIVITIES (Current thru FAC 2005-36)

                                           NON-COMMERCIAL ITEMS

FAR 52.252-2 Clauses Incorporated By Reference (FEB 1998) 


This purchase order or BPA incorporates the following clauses by reference, with the same force and effect as if 

they were given in full text. Upon request, the Contracting Officer will make their full text available. Also, the full 

text of a clause may be accessed electronically at this address: http://acquisition.gov/far/index.html


DOSAR clauses may be accessed at: http://www.statebuy.state.gov


FEDERAL ACQUISITION REGULATION (48 CFR Chapter 1) CLAUSES 


  NUMBER                                            TITLE                                       DATE
52.204-7          Central Contractor Registration                                            APR 2008
52.204-9          Personal Identity Verification of Contractor Personnel (if contractor      SEPT 2007
                  requires physical access to a federally-controlled facility or access to
                  a Federal information system)
52.213-2          Invoices (if order is for subscriptions with advance payments)             APR 1984
52.213-4          Terms and Conditions – Simplified Acquisitions (Other Than                 AUG 2009
                  Commercial Items)
52.217-6          Options for Increased Quantity (if order contains options where the        MAR 1989
                  quantity is expressed as a percentage of the basic order quantity or as
                  an additional quantity of a specific line item)
52.217-8          Option to Extend Services (if order is for services and contains           NOV 1999
                  options)
52.217-9          Option to Extend the Term of the Contract (if order is for services        MAR 2000
                  and contains options) Fill-in for paragraph (a): “the performance
                  period of the order or within 30 days after funds for the option
                  become available, whichever is later.” Fill-in for paragraph (c):
                  ____ [insert time frame]
52.222-50         Combating Trafficking in Persons                                           FEB 2009
                  Alternate I (applies when notified of specific U.S. directives or          AUG 2007
                  notices regarding trafficking in persons)
52.225-14         Inconsistency Between English Version and Translation of Contract          FEB 2000
                  (if a translation of the contract is attached)
52.225-19         Contractor Personnel in a Designated Operational Area or                   MAR 2008
                  Supporting a Diplomatic or Consular Mission Outside the United
                  States (applies to services at danger pay posts)




                                                           36
                                                 UNCLASSIFIED
                                                UNCLASSIFIED


CLAUSES FOR PURCHASE ORDERS AND BLANKET PURCHASE AGREEMENTS AWARDED BY
               OVERSEAS CONTRACTING ACTIVITIES
                              (Current thru FAC 2005-36)

                                              COMMERCIAL ITEMS

FAR 52.252-2 Clauses Incorporated By Reference (FEB 1998)

This purchase order or BPA incorporates the following clauses by reference, with the same force and effect as if
they were given in full text. Upon request, the Contracting Officer will make their full text available. Also, the full
text of a clause may be accessed electronically at this address: http://www.acqnet.gov/far

DOSAR clauses may be accessed at: http://www.statebuy.state.gov/dosar/dosartoc.htm

FEDERAL ACQUISITION REGULATION (48 CFR Chapter 1) CLAUSES

  NUMBER                                         TITLE                                          DATE
52.204-9         Personal Identity Verification of Contractor Personnel (if contractor       SEPT 2007
                 requires physical access to a federally-controlled facility or access to
                 a Federal information system)
52.212-4         Contract Terms and Conditions – Commercial Items                            MAR 2009
                 (Alternate I (OCT 2008) of 52.212-4 applies if the order is time-and-
                 materials or labor-hour)
52.225-19        Contractor Personnel in a Diplomatic or Consular Mission Outside            MAR 2008
                 the United States (applies to services at danger pay posts only)
52.227-19        Commercial Computer Software License (if order is for software)             DEC 2007
52.228-3         Workers’ Compensation Insurance (Defense Base Act) (if order is             APR 1984
                 for services and contractor employees are covered by Defense Base
                 Act insurance)
52.228-4         Workers’ Compensation and War-Hazard Insurance (if order is for             APR 1984
                 services and contractor employees are not covered by Defense Base
                 Act insurance)
The following clause is provided in full text:

    52.212-5   Contract Terms and Conditions Required to Implement Statutes or Executive Orders -
    Commercial Items (SEP 2009)
         (a) The Contractor shall comply with the following Federal Acquisition Regulation (FAR) clauses, which
are incorporated in this contract by reference, to implement provisions of law or Executive orders applicable to
acquisitions of commercial items:
         (1) 52.222-50, Combating Trafficking in Persons (FEB 2009) (U.S.C. 7104(g)) 

         ______Alternate I (AUG 2007) of 52.222-50 (U.S.C. 7104(g)) 

         (2) 52.233-3, Protest After Award (AUG 1996) (31 U.S.C. 3553).
         (3) 52.233-4, Applicable Law for Breach of Contract Claim (OCT 2004) (Pub. L. 108-77, 108-78).

         (b) The Contractor shall comply with the FAR clauses in this paragraph (b) that the contracting officer has
indicated as being incorporated in this contract by reference to implement provisions of law or Executive orders
applicable to acquisitions of commercial items:

                                     [Contracting Officer check as appropriate]

       Clause Number and Title
       (1) 52.203-6, Restrictions on Subcontractor Sales to the Government (SEPT 2006), with Alternate I
       (OCT 1995) (41 U.S.C. 253g and 10 U.S.C. 2402). [Check if order exceeds $100,000]
       (2) 52.203-13, Contractor Code of Business Ethics and Conduct (DEC 2008) (Pub. L. 110-252,
       Title VI, Chapter 1 (41 U.S.C. 251 note)).

                                                           37
                                                UNCLASSIFIED
                                            UNCLASSIFIED


    (3) – (19) [Reserved].
    (20) 52.222-19, Child Labor – Cooperation with Authorities and Remedies (AUG 2009) (E.O.
    13126). [Check if order is for supplies and exceeds the micro-purchase threshold]
    (21) 52.222-21, Prohibition of Segregated Facilities (FEB 1999). [Check if the following apply: for
    supplies, the order exceeds $10,000 and is awarded to a U.S. firm. For services, the order exceeds
    $10,000 and is awarded to a U.S. firm whose employees who will be performing the work were
    recruited within the U.S.]
    (22) 52.222-26, Equal Opportunity (MAR 2007) (E.O. 11246). [Check if the following apply: for
    supplies, the order exceeds $10,000 and is awarded to a U.S. firm. For services, the order exceeds
    $10,000 and is awarded to a U.S. firm whose employees who will be performing the work were
    recruited within the U.S.]
    (23) 52.222-35, Equal Opportunity for Special Disabled Veterans, Veterans of the Vietnam Era, and
    Other Eligible Veterans (SEPT 2006) (38 U.S.C. 4212). [Check if the following apply: for supplies,
    the order exceeds $100,000 and is awarded to a U.S. firm. For services, the order exceeds $100,000
    and is awarded to a U.S. firm whose employees who will be performing the work were recruited
    within the U.S.]
    (24) 52.222-36, Affirmative Action for Workers with Disabilities (JUN 1998) (29 U.S.C. 793).
    [Check if the following apply: for supplies, the order exceeds $10,000 and is awarded to a U.S. firm.
    For services, the order exceeds $10,000 and is awarded to a U.S. firm whose employees who will be
    performing the work were recruited within the U.S.]
    (25) 52.222-37, Employment Reports on Special Disabled Veterans, Veterans of the Vietnam Era,
    and Other Eligible Veterans (SEPT 2006) (38 U.S.C. 4212). [Check if you have included the clause
    52.222-35]
    (26) 52.222-39, Notification of Employee Rights Concerning Payment of Union Dues or Fees (DEC
    2004) (E.O. 13201) [Check if the order is for services and the amount exceeds $100,000]
   (27)(i) 52.222-50, Combating Trafficking in Persons (FEB 2009) [Check for all orders]
    (27)(ii) Alternate I of 52.222-50 [Check if the contracting officer has been notified of specific U.S.
    directives or notices regarding combating trafficking in persons that apply to contractor employees]




                                                      38
                                            UNCLASSIFIED
                                        UNCLASSIFIED



                                                                                                  Appendix E

  Office to Monitor and Combat Trafficking in Persons Response
                                                                 United States Department of State




     •
                                                                 Was!z;ngtofl, D.C. 20520


UNCLASSIFIED                                                     October 4, 20 II


MEMORANDUM TO: OIG - Harold W. Geisel                              ~                     _
FROM:                           GfflP - Ambassador         l.iJi~

SUBJECT:                        Draft Report on Audit of Bureau of East Asian and
                                Pacific Affairs Compliance with Trafficking in Persons
                                Requirements

Thank you for the opportunity to comment on the OIG draft Audit of the Bureau of
East Asian and Pacific Affairs Compliance with Trafficking in Persons
Requirements. GfflP finds the report to be a helpful, if somewhat troubling,
analysis. There is undoubtedly a need for increased awareness and understanding
of human trafficking in the State Department, and for strengthened implementation
of the FAR provisions on TIP. Our Office is ready to work with the relevant
bureaus to implement the recommendations identified by the OIG.

We have only one substantive edit to propose in regard to the narrative text
covering the results of the audit. In the discussion of the Zero Tolerance Policy,
the language on NSPD-22 could be a bit clearer. NSPD-22 does not establish the
framework for the implementation of the entire TVPA. We would offer the
following edit:
National Security Presidential Directive (NSPD) 22, issued on December 16, 2002, was a policy
directive to instruct federal agencies to strengthen their collective efforts. capabilities. and
coordination to supPOrt the policy to combat trafficking in persons estaslishee tAC ff8ffic .. 8rl, Fer
impicmefltatiea efthe TVPA. NSPD·22 states that eradicating trafficking includes raising
awareness at home and abroad about human trafficking and how it can be eradicated ...

In terms of the recommendations, GfflP agrees with the substantive deficiencies
the OIG has identified as in need of redress. We would propose, however, that the
entities responsible for carrying out the four remedial actions be somewhat
adjusted to reflect appropriate lead offices and ensure that all relevant actors are
represented.


                                        UNCLASSIFIED

                                                   39
                                        UNCLASSIFIED
                                 UNCLASSIFIED





                                  UNCLASSI FIED
                                          -2-


  I. On Recommendation I, we would suggest the fonnat ion of an internal
     department working group on TI P to amend the FAM, with M and GrrI P as
     co-chairs. Many topics that would be covered in such a revision go beyond
     GrriP's autho rity, given that issues raised by the draft audit report involve
     important equ ities of M bureaus.

  2. In regard to Recom mendation 2, we note that USAID recentl y put in place a
     revised standard of conduct relating to T IP which may be a good starting
     point for Department discussions on this matter.

  3. We agree completely that there needs to be a clear POC in the Department for
     reporting TI P allegations. We believe, however, that M should have the lead
     (rather than GrrIP) in designating an office in the Department to which
     employees could report potential TIP violations.

  4. We endorse Recommendation 4, on expanding T IP training to all Department
     employees. We would suggest that Director General 's office also be included
     in this effort, as standards of perso nal conduct by USG employees will be
     necessarily be covered. [Note: Under the auspices of the interagency T IP
     Senior Po licy Operating Group (SPOG), DHS and DOS are already wo rk ing
     on an online General Awa reness training that would be made available to all
     USG personnel, which could be used to help implement this recommendation.
     DHS leadership has already stated its intention to ensure all DHS employees
     are trained on TIP.]

Thank you again for affording G/TIP the opportunity to comment on the draft
audit, and fo r all the work the O IG has done to support the fi ght against human
trafficking.




                                  UNCLA SSIFIED


                                          40

                                 UNCLASSIFIED

FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

